PROOF OF SERVICE

I, Frederick W. Claybrook, Jr., a member of the bar of this Court, hereby certify
that on the 13th day of May, 2021, three (3) copies of the Brief Amici Curiae of the
Ethics and Religious Liberty Commission of the Southern Baptist Convention, et
al., supporting granting the Petition in No. 20-1434, Rutledege, et al. v. Little Rock
Family Planning Services, et al., were served by first-class mail, postage pre-paid,
on the following:
Nicholas Jacob Bronni
Counsel of Record for Petitioners
Solicitor General of Arkansas
Arkansas Attorney General's Office
323 Center St., Suite 200
Little Rock, AR 72201
Kendall Kelly Alexis Turner
Counsel of Record for Respondents
O’Melveny & Myers
1625 I St. NW
Washington, DC 20006

/s/ Frederick W. Claybrook, Jr.
Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com

